              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




  Audit Report

The Department's Audit Resolution
and Follow-up Process




DOE/IG-0766                                 May 2007
                             Department sf Energy
                                 WasliingTon,         DC 20585

                                 May 2 4 ,           2007




FROM:                     +*
MEMORANDUM FOR THMECRE5-TARY

                         Greg ry . Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "The Department's Audit
                         Resolution and Follow-up Process"

BACKGROUND
--



Over the years, the Office of Inspector General has issued findings and recoinmendations
addressing numerous aspects of the Department of Energy's programs, operations and
management hnctions. In many cases, the Department has concurred with the findings
and reported that corrective actions to resolve problems or improve the efficiency of its
operations have been implemented. Clearly, ensuring that identified internal control
weaknesses are addressed and corrected is essential to improving the effectiveness and
efficiency of Departmental operations.

The Office of Inspector General is tasked with periodically evaluating the Department's
audit follow-up systems and assessing whether the systems result in effective, prompt,
:rnd proper resolution of audit recommendations. As such, in February 2003, we
reviewed The Department's Audit Resolution Process (DOE/IG-0639) and found that:
(1) target dates for completion of corrective actions had not been established in all cases;
(2) where target dates had been established, corrective actions taken had exceeded
milestones; and, (3) recommendations had been closed even though corrective actions
had not been taken. Shortly thereafter, as a result of the 2003 audit, the Department
strengthened its audit resolution requirements, including requiring the establishment of
target dates, timely closure of audit recommendations, and the implementation of
corrective actions. We initiated the current audit to evaluate the Department's progress in
correcting prior audit follow-up issues and to determine whether issues identified through
recent Office of Inspector General audits had been resolved.

RESULTS OF AUDIT

We found that the Department had made significant improvemeilts to many aspects of its
follow-up system. In particular, it had ensured that target closure dates were established
for all agreed-upon recommendations and that, in most cases, audit recommendations
were closed in a timely manner. However, we found that, in some cases, agreed-upon
recommendations had been closed, but corrective actions had either not been completed
or were ineffective.




                               @     I'rnnlcd wilh soy inl: on rcryrled paper
Our review of "closed" recommendations contained in six selected reports found
significant continuing management issues relating to:

           Ensuring that employee badges were returned and security clearances were
           terminated as required;

           Tracking visits and assignments by foreign nationals;

           Consolidating duplicative nuclear material tracking systems; and,

           Resolving information technology security weaknesses.

Effective corrective actions had not been taken, at least in part, because the Department's
Program Offices and the National Nuclear Security Administration had not given
sufficient management attention to the audit resolution and follow-up process. In some
cases, corrective action plans developed at Headquarters and/or the National Nuclear
Security Administration had not been communicated to sites or subordinate organizations
for implementation. In other cases, the Department had not verified that all planned
actions had been implemented or that officials had fully addressed and corrected the root
causes of previously issued. Inspector General findings. In addition, although specifically
required, Departmental elements that had not been parties to the initial reviews had not
been examining OIG reports to determine whether the same or similar problems existed
within their own organizations.

As is more fully described in the report itself, progress was noted in several areas.
Further, in a separate review on the Status of Prior E.xport Control Recomnzerzdatioizs ai
the Department of Energy (INS-0-07-01), we found that recommendations specific to this
program had been appropriately closed. IVonetheless, additional actions are needed.

Consistent with the statutory mission of the Office of Inspector General, the audit process
provides an important mechanism for assisting management in improving the
performance of the Department and its programs. The audit follow-up and resolution
process is critical to achieving this goal. Consequently, based on the findings in this
report, we have provided several recommendations designed to make this process as
effective and useful as possible.

MANAGEMENT COMMENTS

The Department and the National Nuclear Security Administration provided joint
comments on the draft report and concurred with the recommendations. In particular,
management agreed to issue guidance reemphasizing the requirements of the audit
resolution and follow-up program and perform periodic follow-up activities to help
ensure effective implementation of the guidance. The National Nuclear Security
Administration added that it would formalize its certification methodologies for use by
the site managers, the Service Center Director, and senior program officials in its
organization. Management's comments have been incorporated into the report and
included verbatim as Appendix 4.
Aitaclment

cc:   Deputy Secretary
      Acting Under Secretary of Energy
      Under Secretary for Science
      Principle Deputy Administrator, National Nuclcar Security Administration
      Chief Financial Officer
      Chief Information Officer
      Chief of Staff
REPORT ON THE DEPARTMENT'S AUDIT RESOLUTION AND
FOLLOW-UP PROCESS


TABLE OF
CONTENTS

     Audit Resolution and Follow-up Process

     Details of Finding .............................................................................................. 1

     Recommendations and Comments ............................................................... I I


     Appendices

     1. Objective, Scope, and Methodology ........................................................... 14

     2. Audit Reports Reviewed. ............................................................................ 16
     ?
     2.
          -rrior Reporis ............................................................................................... 1
                                                                                                                         0
                                                                                                                         o


     4. Management Comments ............................................................................ -20
Audit Resolution   Since our 2004 report was issued, the Department of
Activities         Energy (Department) has made significant ilnproveinents in
                   establishing target dates designed to guide the co~npletion
                   of corrective actions and in ensuring timely closure of audit
                   recommendations. Our current review of all audit reports
                   issued during the first half of 2005 disclosed that:

                          Target dates for completion of corrective actions
                          had been established in the Departmental Audit
                          Report Tracking System (DARTS) for all
                          recommendations we reviewed; and,

                          Only 17 percent of the planned corrective actions
                          exceeded closure milestones.

                   Tbis is in c'ontrast to thr results identified In 3vr 3004
                   report where target dates for completion of corrective
                   actions had been established for only 56 percent of the
                   recommendations and 57 percent of the corrective actions
                   taken exceeded closure milestones.

                   However, similar to our 2004 report, our analysis found
                   that the Department continued to close certain
                   recommendations even though corrective actions had not
                   been taken. Specifically, for each of the six reports with
                   "-lp~ndlt
                    r.V.,i-  -o,-prnp,n-rl-t;--c 2. -Trh;rh
                            I rVVIILIIILAIUrlLIULLd  *,      rrr,
                                                             v v   -
                                                               L r f c m z ?iz-
                                                                       -n



                   depth reviews, we found that at least one previously
                   identified issue had not been resolved. F& example, we
                   found continuing issues with employee badging and
                   clearances, foreign national visitor access controls, project
                   management, nuclear material tracking systems, and
                   information technology security.

                                       Badging and Security Clearances

                   Our audit of Persorznel Security Cleara~zcesand Badge
                   Access Controls at Selected Field Locations (DOEIIG-
                   0582, January 2003) identified significant error rates in the
                   Departnlent's official clearance information database
                   (Central Personnel Clearance Index, or CPCI) for Savannah
                   River Site (Savannah River) and Sandia National
                   Laboratories (Sandia). We also identified that a
                   statistically significant number of badges had not been
                   recovered from former contractor and other non-federal
                   workers at the Oak Ridge Reservation (Oak Ridge).
                   Management generally concurred with the
                   recommendations in this report, agreed

Page 1                                                             ~ e t a i l sof Finding
         to take corrective actions, and certified the effectiveness of
         those corrective actions in accordance with Department
         requirements.

         However, our recent analysis of CPCI indicates that these
         issues persist at three of the Department sites included in
         our January 2003 review. For example, 171 employees at
         the Y- 12 National Security Complex (Y - 12) were
         designated as "active" in the Department's CPCI system,
         but had been identified as "separated fiom duty" in the
         corresponding Y- 12 Human Resource system as of May
         2006. After allowing for potential timing differences and
         items that may have been discovered during quarterly
         reconciliations, we identified 142 employees who were no
         longer associated with the Department but still maintained
         an active security clearance. All except two of these 142
         individuals had "Q" clearances.

         Security clearances at East Tennessee Technology Park
         (ETTP) were also not always terminated fiom the CPCI
         system in a timely manner. Our analysis showed that, as of
         May 2006,34 employees (18 with "Q" clearances) who had
         reportedly worked at ETTP and should have had their
         security clearances terminated or transferred were still
         listed as active in the CPCI system. Of these employees,
         20 individuals had active security clearances in the CPCI
         system for over six months after their termination fiom
         ETTP.

         ETTP, in responding to the results of our testing, stated that
         they had been granted a variance allowing security
         clearances to be retained for 180 days beyond termination
         and this situation accounted for some of the termination
         discrepancies we identified. We noted, however, that the
         variance expired in January 2005, prior to the date many of
         these employees left ETTP. For seven of the cases, ETTP
         indicated that en~ployeeshad been transferred to
         subcontractors or other Department locations, however, we
         found that the clearance sponsor code in CPCI had not been
         changed as required. Finally, ETTP stated that nine of the
         employees we determined to have improperly retained
         clearances had never worked there - despite being listed in
         ETTP's human resources system and identified in CPCI as
         holding clearances sponsored by ETTP.

         Despite our findings, ETTP officials told us that their
         current security clearance administration process and

Page 2                                          ~ e t a i lof
                                                            s Finding
                                    tracking activities were appropriate. They based their
                                    coi~clusion,in part, on a security survey completed by Oak
                                    h d g e Operations that rated their program as satisfactory.
                                    The survey was completed in February 2007, just over four
                                    years after the completion of our January 2003 review.

                                     Finally, the previously reported issue of not recovering
                                     badges from former employees has also not been
                                     conlpletely resolved by the Department's contractors. For
                                     example, two recently issued Office of Inspector General
                                     (OIG) reports found that a number of terminated employees
                                     had not returned their security badges to Sandia and Los
                                     Alamos National Laboratories (Los ~ l a m o s ) as
                                                                                     ' required.
                                     Similarly, the Oak Ridge Operations Security Survey noted
                                     above included a finding that ETTP was not immediately
                                     regortins lost. stolen. missing. and non-recovered badzes to
                                     the Department.

                                                     Foreign National Visitor Access

                                     Our audit of The Depa~tlnent'sUnclass~jiedForeign Visits
                                     and Assignnzelzts Progranz (DOEIIG-0579, December
                                     2002) d~tellliiiledtlist ihe Depai-tiiieiit llad ilot adcqilzitelj;
                                     controlled unclassified visits and assignments by foreign
                                     nationals at two national laboratories. Specifically, we
                                     fniind that not all f n r ~ i g nnationals had ciirrent ~ a s s ~ o r t s
                                     and visas and that sites had not reported sufficient
                                     information to enable the Department to properly track all
                                     foreign visitors and assignees in the Foreign Access Central
                                     Tracking System (FACTS). FACTS is the Department's
                                     official national database of information on unclassified
                                     foreign visits and assignments. The Department generally
                                     agreed with our findings, conclusions, and
                                     recommendations; initiated immediate corrective actions;
                                     and ultimately certified the effectiveness of those corrective
                                     actions. However, our current review found evidence that
                                     these issues persist at at least one of the Department sites.

                                     Our current review of the same Office of Science-managed
                                     national laboratory analyzed in our prior report identified that
                                     the local foreign national visits and assignments system still
                                     did not have sufficient information. For example, a total of
                                     4,911 of its 7,802 (63 percent) foreign national visits and

I
    Badge Retrieval and Security Clearance Termiizatioiz at Sandia National Laboratoiy-New Mexico
    (DOEIIG-0724, April 2006)
    Security and Other Issues Related to Out-Processing of Ei7zployees at Los Alanzos National Laboratoiy
    (DOEJIG-0677, February 2005)

Page 3                                                                              Details of Finding
         assignments from January 2005 through April 2006 did not
         have complete or valid information related to passports and
         visas. In addition, our comparative analysis revealed that
         FACTS records from that same time period indicated that
         the national laboratory had 8,340 visits and assignments,
         while the laboratory's local system only listed 7,802.

         Additionally, the Department has identified similar issues
         during its own site-specific reviews of foreign national
         access controls. During reviews conducted by the Chicago
         Operations Office in September 2003 and September 2005,
         officials found that the same national laboratory was not
         consistently entering visits and assignments information
         into FACTS and was not closing out visits and assignments
         as specified in Departmental directives. While the
         existence of the Departmental reviews indicates that this
         area is periodically being evaluated, the consistently
         negative results also tend to demonstrate that the national
         laboratory is not effectively correcting the issues we
         reported in December 2002. Due to the complex nature of
         this issue and potential national security implications, we
         have initiated a separate audit of the Department's Foreign
         Visits and Assignments program.

                             Project Management

         In our February 2001 audit of the U.S. Department of
         Energy's Corporate Human Resource Information Systeiiz
         (DOEIIG-0494), we determined that the Department had
         not adhered to project planning requirements for system
         development projects - including updating its cost benefit
         analyses to reflect project delays, cost increases, and scope
         changes. While the Department agreed to revise its cost
         benefit analysis to address the associated recommendation,
         a follow-up audit, 7 k e Department's Development and
         Implementation of the Corporate Human Resource
         Information System (OAS-L-06- 14, May 2006), determined
         that it did not do so. Even though management officials
         performed analyses on one component of this system and
         on Fiscal Year (FY) 2006 and out-year costs and benefits,
         the effort did not provide an overall picture of the project's
         costfbenefit or its return on investment from inception.
         Without such analyses, management lacked the tools
         necessary to closely monitor project cost (approximately
         $37 million through FY 2005), schedule, and performance.




Page 4                                           Details of Finding
                     Nuclear Materials Tracking Systems

         Our report on Nz~clearMaterials Accountirlg Sysfelns
         Modernization Initiative (DOEIIG-0556, June 2002)
         identified that the Department had not adequately managed
         its activities to redesign or modenlize its nuclear materials
         accounting systems. Moreover, planned and on-going
         system development efforts were not hlly consistent with
         the Corporate Systems Infom~ationArchitecture. We
         recommended, among other things, that the Department
         develop a coordinated approach and select a final
         alternative for modernizing nuclear materials accounting
         information systems that was consistent with the
         Department's Corporate Systems Information Archtecture
         as well as security and program specific operational needs.
         However, in September 2002, the recomnlendations were
         closed in DARTS because of the Department's decision to
         track the status of the recommendations as part of the
         e-Gov Presidential Initiative (Initiative). According to a
         National Nuclear Security Administration (NNSA) official,
         tracking the reconlrnendations in DARTS was no longer
         needed because it would cause duplicative reporting on the
         status of these recomendztjons.

         In October 2002, an assurance letter was signed by a
         NNSA official that certified that all necessary actions had
         been taken for audit follow-up assessment and corrective
         actions pertaining to t h s report's recommendations were
         complete even though the recommendations were still
         being addressed and tracked through the Initiative.
         However, almost three years and over $1.2 million later,
         the Nuclear Material Accountability (Nh4A) Project was
         terminated under the Initiative. In spite of management's
         assertion regarding closure, there was no final resolution of
         our recommendations. In addition, we could not locate or
         obtain fom~aldocumentation on the NMA Project's close
         out. As a result of the Initiative, management told us that
         some process improvements have been implemented while
         some are still on-going. W l e the improvements are a
         positive step, we do not believe that the Department has
         fully resolved the problen~soutlined over four years ago.

         NNSA provided technical comments to a draft of this
         report indicating that the method of resolution for this
         report was rare, if not unique. NNSA stated that they did
         work to resolve the concerns raised by the report through
         the e-Gov initiative, but that management made a decision


Page 5                                           Details of Finding
         to terminate the initiative prior to resolution. While NNSA
         agrees that the recommendations made in the original
         report had not been addressed, they believe that they were
         not remiss in their duties. However, the issues identified in
         the report continue to exist.

                      Information Technology Security

         We also observed that findings and recommendations made
         in our annual reports on The Department's Unclasszfied
         Cyber Security Program are often repeated from site-to-site
         or program-to-program. For example, our evaluation of the
         Information Technology Management Letter on the Audit of
         the Department of Energy's Consolidated Financial
         Statements for Fiscal Year 2005 revealed that 13 of the 25
         findings identified were the same or similar to findings in
         the FY 2004 management letter. This includes one finding
         related to computer security certification and accreditation
         that has been reported since 2002 at the Argonne National
         Laboratory and has been issued again as a repeated finding
         in FY 2006. Finally, a recent OIG report, Certzfication and
         Accreditation of Unclassz3ed Information Systenzs
         (DOEIIG-0752, January 2007) also identified that the
         Department's systems were not properly certified and
         accredited for operation. The report found that many sites
         had not properly assessed the potential risk to their systems.

                         Portsmouth Conversion Line

         In our March 2004 audit on Depleted Uranium
         Hexafluoride Conversion (DOEIIG-0642), we concluded
         that the Department's plan for converting depleted uranium
         hexafluoride inventories could be improved by adding an
         additional conversion line to the Portsmouth facility. We
         recommended that the Manager at the site conduct a cost-
         benefit analysis to determine the optimum size and
         operation of the Portsmouth depleted uranium hexafluoride
         conversion facility and based on the results of the review,
         implement the most cost-effective approach. While the
         Department performed a cost-benefit analysis in May 2005
         which showed that adding the fourth line to the Portsmouth
         facility could save $55 million, it had not implemented the
         most cost-effective approach to converting depleted
         uranium hexafluoride to a more stable form. A recent
         follow-up OIG report, Follow-up of Depleted Uranium
         Hexajluoride Conversion (DOEIIG-075 1, December 2006)
         noted that, as of August 2006, the Department had not

Page 6                                           Details of Finding
                           added the fourth conversion line even though it had begun
                           construction of the facility eleven months earlier.
                           Operational efficiencies and cost savings from an
                           additional conversion line at the facility were still viable.
                           Specifically, the Department could still save at least $35
                           million in life-cycle costs by reducing the operations
                           schedule by nearly five years if the fourth line is added to
                           the project.

Sufficient Management Previously identified deficiencies were not resolved,
Attention             at least in part, because the Department's program offices
                      and NNSA did not give sufficient management attention to
                      the audit resolution and follow-up process. In some cases,
                      corrective action plans developed at the Headquarters level
                      were not communicated to applicable sites for
                      implementation. In other cases, the Department had not
                      effectively verified that all planned actions had been
                      implemented or that they had fully correctedaddressed the
                      root causes of previously issued findings. In addition,
                      Departmental elements not included in the initial review
                      had not been reviewing OIG reports to determine whether
                      there were "lessons learned" which could be applicable to
                      their own organizations.

                                              Corrective Action Plans

                           In some cases, corrective action plans developed by
                           Headquarters program offices andor NNSA had not been
                           communicated to applicable sites for implementation.
                           Department policy requires that a corrective action plan be
                           developed by the primary organization within the
                           Department to address each open recommendation.
                           Communication between Headquarters organizations and
                           their applicable sites regarding implementation of
                           developed corrective action plans is a vital part of the audit
                           resolution and follow-up process. However, we identified
                           some instances where this communication did not occur.

                           For example, the January 2003 OIG report on badging and
                           security clearances included recommendations addressed to
                           NNSA Headquarters. However, NNSA Headquarters
                           officials stated that they did not have a formal corrective
                           action plan other than the actions in DARTS. We
                           contacted an official from Los Alamos, one of the sites
                           included in our original report, to deternine whether that
                           site had developed a formal corrective action plan to
                           address the open recommendations. The Los Alamos

Page 7                                                             Details of Finding
         official stated that NNSA Headquarters would have the
         responsibility for developing a corrective action plan for
         the Los Alamos site since the recommendations were
         addressed to Headquarters. At the time of our review,
         NNSA Headquarters had not transmitted a corrective action
         plan to Los Alamos and that site had not developed their
         own corrective action plan to address the issues identified
         in 2003. In this case, the problems related to badging and
         clearances were still occurring at Los Alamos in February
         2005, as demonstrated by the previously identified
         inspection report on this subject.

         For the same 2003 OIG audit report on badging and
         clearances, the Office of Environmental Management (EM)
         also never provided the necessary guidance to the ETTP
         site. In a response to the original draft report, the Assistant
         Secretary for EM stated that a letter of guidance for ETTP
         would be prepared concerning the major issues covered in
         our report. This was to be followed, in early 2003, with the
         implementation of corrective actions and validation reviews
         conducted every three months to ensure acceptable
         implementation. However, due to the Office of Science's
         landlord responsibilities over the entire Oak Ridge
         Reservation, which includes ETTP, there was conhsion
         over which program office ultimately needed to direct
         ETTP on corrective actions. Our review revealed that
         neither program office provided ETTP with a letter of
         guidance nor were validation reviews ever performed. In
         fact, the corrective actions that were to be implemented at
         ETTP were never included in the DARTS tracking system.
         Both our current review, and a self assessment conducted
         by ETTP in June 2006, indicated that problems still
         remained in this area, even though the recommendations
         from our original report were closed over two years ago.

                        Effectiveness of Actions Taken

         While we found written assurances from each of the
         program offices andlor NNSA certifying the effectiveness
         of the corrective actions taken, none of the Department
         offices had performed formal audit follow-up assessments
         or reviews as required by Departmental Order. These
         reviews were designed to verify that actions had actually
         been taken or that weaknesses reported in OIG audits had
         been corrected. According to the Order, only after these




Page 8                                            Details of Finding
                                 assessments or reviews are completed should the
                                 recommendatioi~sbe certified for closure by the head of the
                                 program office or NNSA.

                                 Officials from the Office of Science (Science) told us that
                                 instead of formally verifying the implementation of
                                 corrective actions, they hold site managers accountable for
                                 audit resolution by including it in their performance
                                 appraisals. However, the officials were unable to provide
                                 us with sufficient documentation that audit resolution and
                                 follow-up was actually included in site managers'
                                 performance appraisals and, as evidenced by our recent
                                 findings, this approach has not been completely effective.
                                 In addition, NNSA and EM officials told us that formal
                                 audit follow-up assessments or reviews had not been
                                 performed.

                                        Applicability of Findings and Recommendations

                                 Departmental organizations not included in OIG audits did
                                 not always review published reports for potential "lessons
                                 learned." In response to a recommendation from our 2004
                                 report on audit resolution and follow-up, the relevant
                                 Department Order was revised to require each primary
                                 Departmental organization to review audit report findings
                                 and recommendations assigned to other organizations for
                                 applicability and to determine whether actions needed to be
                                 taken to resolve the issues identified.

                                 We found, however, that the requirement to perform such
                                 reviews had not been implemented at the Departmental
                                 organizations we reviewed. For example, our 2003 report
                                 on personnel clearances and badge access controls was
                                 conducted at three NNSA sites - Sandia, Los Alamos, and
                                 Y-12. The recommendations in that report were directed to
                                 the Associate Administrator for Facilities and Operations
                                 within NNSA. Since NNSA concurred with the
                                 recommendations and planned to take corrective actions to
                                 address the conditions cited, all NNSA facilities should
                                 have examined their badging programs for problems;
                                 however, that was not done. The absence of a process to
                                 review audits for applicability at other sites may have also
                                 contributed to the issues identified in a recent inspection
                                 report2 on Lawrence Livermore National Laboratory


 Security Clearance Terminations and Badge Retrieval at the Lawrence Livermore National Laboratory
(DOEITG-07 16, January 2006)

Page 9                                                                       Details of Finding
                (Livermore). Similar to the 2003 report mentioned above,
                the inspection determined that Livermore had not retrieved
                security badges at the time of employees' departure and had
                not terminated security clearances of departing employees
                in a timely manner.

                In contrast, we found that the Strategic Petroleum Reserve
                (SPR) had a process where they review all OIG reports to
                determine whether issues identified may be applicable to
                the SPR. In April 2004, SPR analyzed our 2004 report on
                audit resolution and determined that it had local
                implications. Specifically, there had been a few instances
                at SPR where audit findings were not resolved in a timely
                manner. The contractor's management responded by
                tracking the status of open recommendations each quarter
                and stressing timely close-out in discussions with impacted
                personnel. SPR's review of our report ultimately
                strengthened their process of tracking open
                recommendations.

Improvement     Without effectively implementing existing audit resolution
Opportunities   requirements, the Department has not taken full advantage
                of opportuilities to improve program perfoimance,
                accountability, and achieve cost savings. This is especially
                critical in key areas such as those listed annually in our
                report on Management Challenges at the Department of
                Energy. As noted above, we identified audit follow-up
                deficiencies on reports related to national security and
                project management, both of which have been included as
                significant management challenges since November 2000.

                The importance of the Department's operations and the
                continuous and changing nature of threats, make national
                security a challenge that requires management's continued
                vigilance and emphasis. Once identified, it is imperative
                that security weaknesses are corrected immediately to
                protect the Department's facilities and classified
                information. In this case, failure to implement effective
                corrective actions in response to our audit reports on
                personnel security clearances and badging, and foreign
                visits and assignments increased the risk that security could
                be breached at Departmental sites.

                In this report, we cite three examples of audit reports that
                questioned the Department's management of specific
                projects (Corporate Human Resource Information System,
                Nuclear Materials Accounting System Modernization

Page 10                                                Details of Finding
                  Initiative, and Depleted Uranium Hexafluoride
                  Conversion). These were all multi-million dollar projects,
                  each of which included practices that linlited management's
                  ability to closely monitor project costs, schedules, and
                  performance. These issues should have been corrected in
                  response to the recommendations included in our audit
                  reports. Unfortunately, subsequent reviews indicated that
                  the problems originally reported were never completely
                  resolved and continued to impact the Department's ability
                  to successfully complete these projects. An effective audit
                  resolution and follow-up program should have noted these
                  examples and not permitted closure of the
                  recommendations until action was completed.


RECOMMENDATIONS   We recommend that either Program Secretarial Officers,
                  in coordination with the Chief Financial Officer or the
                  Administrator, NNSA, as appropriate, reinforce existing
                  requirements by:

                      1. Ensuring that fonnal corrective action plans are
                         communicated to all applicable sites for
                         implementation;

                     2. Developing formal audit follow-up assessment
                        review orocedures as required by Departmental
                        Order, to verify and document that actions taken
                        have corrected the issues identified through audits
                        prior to the submission of the assurance
                        certification;

                     3. Ensuring that appropriate officials are held
                        accountable for carrying out formal assessments and
                        reviews; and,

                     4. Reviewing all 01G findings and recornlendations
                        to determine the applicability of the issues
                        identified and whether actions need to be taken at
                        sites/programs other than those specifically
                        mentioned in the audit.


MANAGEMENT        The Department and the NNSA provided consolidated
REACTION          conments to the draft report and concurred with the
                  reconmendations. The Department agreed to issue
                  guidance to program offices reemphasizing the
                  requirements of the audit resolution and follow-up

Page 11                              Recommendations and Comments
           program. This guidance, according to the Department, will
           focus on the efficient and effective resolution of audit
           findings and recommendations; the assignment of
           accountability to senior program element managers for the
           management of their respective audit resolution processes;
           and senior management requirements for providing
           corporate oversight, review, and resolution of audit issues.
           In addition, the Department indicated that it will perform
           periodic follow-up activities to help ensure effective
           implementation of the guidance. Also, NNSA has agreed
           to formalize its certification methodologies for use by the
           site managers, the Service Center Director, and senior
           program officials in its organization.

           Even though NNSA concurred, it noted that it did not
           believe that additional action was required for
           Recommendations 1 and 4 because its current audit
           resolution process was sufficient to address those
           recommendations. Specifically, in response to
           Recommendation 1, NNSA indicated that corrective action
           plans are already distributed to all appropriate elements
           within NNSA. These plans are provided through the
           formal Management Decision process andlor through
           DARTS. Furthermore, in response to Recommendation 4,
           NNSA added that it had an established process to allow all
           elements to review all issues raised in audit reports for
           applicability.

           Separate technical comments were also provided by NNSA,
           the Offices of Health, Safety and Security, EM, and
           Science.


AUDITOR    Comments from the Department and NNSA acknowledge
COMMENTS   that improvements are needed in the audit resolution and
           follow-up process area. Management's planned actions,
           where provided, were responsive to the report's
           recommendations.

           We do not, however, agree with NNSA's assertion that two
           of the recommendations have already been addressed as
           they apply to NNSA. NNSA stated that under its current
           audit resolution process, corrective action plans are
           provided to all appropriate elements under NNSA. As we
           noted in our report, however, such was not always the case.
           Specifically, we noted that NNSA's resolution of our
           January 2003 OIG report (DOE/IG-0582) on badging and

Page 12                                                  Comments
          security clearances did not ensure that a corrective action
          plan was coinmunicated to Los Alamos, one of the sites
          included in the report, for implementation. As a result,
          these issues were still occurring at Los Alamos in February
          2005, as demonstrated by an OIG inspection report. As
          part of the management decision process, we hope to
          review NNSA's documented procedures for the creation
          and distribution of corrective action plans to each of the
          organizations under its control.

          Finally, NNSA stated that it has an established process in
          place to allow all elements to review for applicability to
          their specific sites or programs those issues that are being
          raised in audit reports. However, according to a
          management official, NNSA's current process excludes
          OIG reports that do not include NNSA as part of the audit.
          We believe this approach could cause NNSA to miss
          opportunities to review certain report findings and
          recommendations that may be applicable. It may also be
          beneficial for NNSA to use an Audit Trends/Crosscutting
          Issue analysis similar to the one mentioned in
          management's comments as a tool to facilitate NNSA's
          assessments of applicability.

          Management's comments have been incorporated into the
          reno0 ~xrher~,
                      annlirahl~and inrlild~rlv~rhatimas A??~ndix 4
                        A   A




Page 13                                                  Comments
Appendix I

OBJECTIVE     To evaluate the Department of Energy's (Department) progress
              on correcting prior audit follow-up issues and to determine
              whether issues identified through recent Office of Inspector
              General (OIG) audits had been resolved.


SCOPE         The audit was performed between February 2006 and May
              2007. We conducted work at Headquarters and received
              information fi-om Oak Ridge National Laboratory, Y-12
              National Security Complex, East Tennessee Technology Park,
              Savannah River Site, Brookhaven National Laboratory, Los
              Alamos National Laboratory, and the Strategic Petroleum
              Reserve Project Management Office.


METHODOLOGY   To accomplish our audit objective, we:

                     Reviewed applicable Departmental orders and policies
                     and procedures implemented at the Department;

                     Held discussions with Headquarters program and site
                     officials regarding audit resolution and follow-up
                     process;

                     Selected and analyzed ail OIG audit reports and
                     associated recommendations fi-om the first half of 2005
                     to determine if target closure dates were established and
                     ensured timely closure of audit recommendations;

                     Reviewed Departmental Audit Report Tracking System
                     data to determine status of selected OIG audit
                     recommendations;

                     Reviewed six judgmentally-selected OIG audit reports
                     dated fi-om February 200 1 to November 2005 with
                     "closed" recommendations to determine whether
                     corrective action plans had been developed and
                     implemented, and whether actions taken actually
                     corrected the weaknesses;

                     Obtained data files of active badges fi-om site badge
                     systems and active clearances fi-om the Central
                     Personnel Clearance Index (CPCI) system at
                     Headquarters;


Page 14                              Objective, Scope, and Methodology
Appendix I(continued)


                          Used Audit Colnilland Language (ACL), a data-mining
                          software tool, to compare contractor human resource
                          listings of e~nployeesto CPCI to determine whether
                          they still had an active clearance in the CPCI;

                          Held discussions with Headquarters and field site
                          officials to gain an understanding of roles,
                          responsibilities, and procedures concerning CPCI and
                          local site badge systems;

                          Used ACL to compare the Department's Foreign Access
                          Central Tracking System (FACTS) to a site's foreign
                          visits and assignments tracking system; and,

                          Held discussions with Headquarters and field site
                          officials to gain an understanding of roles,
                          responsibilities, and procedures concerning FACTS and
                          the local foreign visits and assignments tracking
                          systems.

                   The audit was performed in accordance with generally
                   accepted Govenunent auditing standards for performance
                   audits and included tests of internal controls and compliance
                   with laws and regulations to the extent necessary to satisfy the
                   audit objective. Accordingly, we assessed the significant
                   internal controls and performance measures established under
                   the Government Performance and Results Act of 1993.
                   Specific performance measures concerning the audit resolution
                   and follow-up process were established in the area of meeting
                   audit recommendations closure milestone targets. Because our
                   review was limited, it would not necessarily disclose all
                   internal control deficiencies that may have existed at the time
                   of our audit. We obtained and reviewed the computer
                   processed data made available to us in order to achieve our
                   audit objective. We validated the reliability of such data, to the
                   extent necessary to satisfy our audit objective, by tracing it to
                   source documents or other supporting information.

                   We held an exit conference with management on May 3,2007.




Page 15                                    Objective, Scope, and Methodology
Appendix 2

                             AUDIT REPORTS REVIEWED


The following are the six audits selected for review to determine whether corrective action
plans had been developed and implemented, and whether actions taken actually corrected the
weaknesses.

       Information Technology Managenlent Letter on the Audit of the Department of
       Energy's Consolidated Financial Statements for Fiscal Year 2005 (OAS-FS-06-02,
       November 2005). The results of the Fiscal Year 2005 Information Technology
       control reviews indicated that network and information systems security control
       weaknesses continue to exist in the Department of Energy's (Department) unclassified
       information systems.

       Depleted Urnniur~zHexafluoride Corzver.siorz (DOEIIG-0642, March 2004). This
       audit concluded that the Department's plan for converting depleted uranium
       hexafluoride inventories could be improved by adding an additional conversion line
       to the Portsmouth facility. At the time of the audit, plans called for three conversion
       lines, which were capable of processing 13,500 metric tons of depleted uranium
       hexafluoride per year. By adding another conversion line, Portsmouth could have
       processed 4,500 metric tons of additional material annually and completed the project
       nearly five years earlier than planned. The facility size was not optimized because
       the Department's acquisition strategy emphasized initial capital costs rather than
       minimizing life-cycle costs. By increasing the production capacity at Portsmouth, the
       Departilleilt could have shoitened the duration of the Portsinouth co~lversioilproject
       by about 5 years and saved about $55 million.

       Personnel Security Clearances and Badge Access Controls at Selected Field
       Locations (DOEIIG-0582, January 2003). This audit identified that at the Oak Ridge
       Reservation (Oak Ridge), 26 (8 percent) of our sample of 309 coiltractor and other
       non-federal workers retained badge authority after they terminated their association
       with the Department. Additionally, at Savannah River Site, 34 of 177 (19 percent)
       individuals improperly retained the authority to hold security clearances after they
       terminated their association with the Department. Similarly, at Sandia National
       Laboratories, 14 of 108 (13 percent) former workers inappropriately maintained
       active clearances and, at Oak Ridge, 15 (about 6 percent) individuals improperly held
       active clearances. Processes in place at the time of the review did not ensure that
       authorizations were promptly removed f?om systems and could have permitted those
       who improperly retained a clearance or badge with a window of opportunity to enter
       or access sites without authority. Recommendations were made to help the
       Department strengthen controls over badge recovery and clearance termination within
       the Central Personnel Clearance Index (CPCI).




Page 16                                                            Audit Reports Reviewed
Appendix 2 (continued)


     The Departnzent's Ur7classzJied For-eign Jfisits and Assig~lnzentsProgrum (DOEIIG-
     0579, December 2002). T h s audit found that the Department had not adequately
     controlled unclassified visits and assignments by foreign nationals at two national
     laboratories. Specifically, one Office of Science (Science) laboratory had not
     required or maintained accurate passport and visa information for 91 of the 187 (49
     percent) randomly selected visitors or assignees reviewed. Forty-one of the 91 had
     active badges and could have accessed most of the site's facilities. Thrty-four of the
     91 were fi-om sensitive countries such as the People's Republic of China, India, and
     Russia. Similar problems were noted at the NIVSA-managed laboratory. Passport
     and visa data were missing or incomplete for 37 of the 188 (20 percent) individuals
     selected. Twelve of those with incomplete or missing information had an active
     badge. Of the 37 individuals, 17 were from sensitive countries. In addition, the
     Science laboratory permitted foreign nationals to access its facilities prior to approval
     of their visit or assignment. We found that 74 of 187 (40 percent) visitors and
     assignees from the Science-managed laboratory had been issued badges and allowed
     site access before their visit or assignment was approved. Finally, neither laboratory
     provided sufficient information to the Department's centralized tracking system
     (Foreign Access Central Tracking System), which was designated to facilitate
     complex-wide tracking of the status of foreign nationals. Weaknesses occurred
     because of the lack of specificity in policy guidance, problems with implementation,
     and a lack of clear and quantifiable performance measures. Recommendations were
     made to help the Department strengthen management practices for controlling
     unclassified visits and assignments by foreign nationals.

     Nuclear Materials Accounting Systems Modernization Initiative (DOELG-0556, June
     2002). This audit found that the Department had not adequately managed its
     activities to redesign or modernize its nuclear materials accounting systems.
     Moreover, planned and ongoing system development efforts were not fully consistent
     with the Corporate Systems Information Architecture.

     Tlze US. Depart~nentofEnel-gy's Corporate Human Resource Information System
     (DOEJIG-0494, February 2001). This audit found that the U.S. Department of
     Energy's Corporate Human Resource Information System (CHRIS) had not satisfied
     all Federal and Departmental requirements and had not met certain Departmental
     goals and objectives. For example, (1) several system development activities were
     inadequate or had not been completed; (2) Departmental initiatives to reengineer
     certain Human Resources processes and eliminate over 50 redundant systems had not
     been satisfied; and, (3) CHRIS had computer security weaknesses that increased the
     risk of unauthorized access or malicious damage to the system.




Page 17                                                           Audit Reports Reviewed
Appendix 3

                                   PRIOR REPORTS

Office of Inspector General Reports

      Badge Retrieval and Security Clearance Termination at Sandia National Laboratory-
      New Mexico (DOEIIG-0724, April 2006). This inspection concluded that Sandia
      National Laboratory-New Mexico's (Sandia) internal controls were not adequate to
      ensure that, in accordance with applicable policies and procedures, security badges
      assigned to terminating Sandia and subcontractor employees were retrieved at the
      time of departure or that security clearances of terminating Sandia and subcontractor
      employees were terminated in a timely manner.

      Security Clearance Terminations and Badge Retrieval at the Lawrence Livermore
      National Laboratory (DOEAG-07 16, January 2006). This inspection concluded that
      Lawrence Livermore National Laboratory's internal control structure was not
      adequate to ensure that security badges were retrieved at the time of employee
      departure or that security clearances of departing employees were terminated in a
      timely manner.

      Security and Other Issues Related to Out-Processing of Employees at Los Alamos
      National Laboratory (DOEIIG-0677, February 2005). This inspection identified that
      Los Alarnos National Laboratory's (Los Alamos) out-processing procedures were not
      followed by more than 40 percent of the 305 terminating employees included in our
      sample. Consequently, Property Administrators, Classified Document Custodians,
      and Badge Office personnel frequently did not receive timely notification that
      employees were terminating. Given this and the results of additional sampling, we
      found that there was no assurance that, prior to departure, Los Alamos terminating
      employees turned in security badges, completed the required Security Termination
      Statement, or had their security clearances and access authorizations to classified
      matter andlor special nuclear material terminated in a timely manner.

      Management of the Department's Personnel Security and Access Control Information
      Systems (DOEIIG-065 1 , June 2004). This audit found that the Department of
      Energy's (Department) information systems modernization initiatives would not: (1)
      significantly improve the ability of its corporate personnel security system to track
      visitor site access, reconcile with contractor clearance tracking systems, enable field
      sites to generate customized reports, or increase user system access; (2) eliminate
      costly development and maintenance of numerous separate, site-level personnel
      security information systems; and, (3) reduce overlapping or redundant physical
      access control systems that do not communicate with each other, including those at
      some facilities located in close proximity to one another. This occurred because the
      Department had not developed a comprehensive framework for modernizing its
      personnel security and access control information systems, and did not always follow
      sound system development practices.




Page 18                                                                       Prior Reports
     Tlze Depal-t~~ze~zt's
                        Audit Resolution P~*ocess(DOEIIG-0639, February 2004). Tl-Lis
     audit observed that: (1 ) target dates for colnpletion of corrective actions had not been
     established for 44 percent of the 104 recommendations we reviewed; (2) where target
     dates were established, 57 percent of the corrective actions taken exceeded closure
     milestones; (3) in several cases, recoinmendations were closed even though corrective
     actions had not been taken; and, (4) the Department did not take advantage of
     potential savings of about $26 million due to delays in corrective action
     implementation.

     Personnel Security Clearances and Badge .4 ccess Contl-01s at Department
     Headqua]-ters(DOEIIG-0548, March 2002). This audit disclosed that the Department
     had either not terminated former federal and contractor employees' clearances or had
     not recovered their badges. Errors occurred because program offices had not always
     provided employment termination illformation to Headquarters Security Operations
     or held contractors accountable for adherence to Departmental policy.




Page 19                                                                       Prior ~ e ~ o r t s
Appendix 4



                                       Department of Energy
                                National Nuclear Security Administration
                                        Washington. DC 20585

                                           February 15, 2007




             MEMORANDUM FOR                Rickey R. Hass
                                           hsistant Inspector General


             FROM:



                                           Associate ~dministrator/      /  *

                                             for Management and Administration

             SUBJECT:                      Comments to Audit Resolution and Follow-up
                                           Process Draft Report; A06PT0 1 4


             The Department of Energy (Department) and the National Nuclear
             Security Administration (NNSA) appreciate the opportunity to review
             the Inspector General's (IG) draft report, "The Department's Audit
             Resolution and Follow-up Process." We understand that this audit was
             conducted to evaluate the Department's progress on correcting prior
             audit follow-up issues and to determine whether the Department has
             taken appropriate actions to resolve issues identified through recent IG
             audits.

             Although the Department and NNSA concur with the recommendations,
             NNSA has concerns, as attached, with the report as it is written.
             Additionally, we are providing technical comments on the report from the
             following Departmental organizations: Office of Health, Safety and
             Security; Office of Environmental Management, Office of Science; and
             Bechtel Jacobs Company LLC-East Tennessee Technology Park.

             Should you have any questions, please contact Richard Speidel or Dean
             Childs on 202-586-5009 or 301 -9Q3-2560,respectively.

             Attachments




Page 20                                                                    Management Comments
Appendix 4 (continued)




                                                                                                     Attachment 1


                                                   Comments on
                                          Inspector General Draft Report
                              "The Department's Audit Resolution and Follow-up Process"


          We suggest that the introduction to the recommendations be restated as follows:

          We recommend that either the Program Secretarial Officers, in coordination with the Chief
          Financial Officer or the Administrator, NNSA, as appropriate, reinforce existing requirements by:

              1. Recommendation

                 Ensuring that formal corrective action plans are communicated to all applicable sites for
                 implementation;



                 Concur

                 The Department will issue guidance to reemphasize the requirements of the audit resolution and
                 follow-up program. This guidance will focus on the efficient and effective resolution of audit
                 findings and recommendations; the assignment of accountability to senior program element
                 managers for the management of their respective audit resolution processes; and senior manager
                 requirements for providing corporate oversight, review and resolution of audit issues.
                 Additionally, the Office of the Chief Financial Officer will be issuing a revised Audit
                 Coordinator's Handbook which identifies the roles and responsibilities of the Program Secretarial
                 Offices' (PSO) designated audit coordinators in supporting this objective. This action is
                 scheduled for closure by December 2007.

                 For NNSA, corrective action plans are provided to all appropriate elements within NNSA as part
                 o i its current audit resolution process. These plans are provided through the formal Management
                 Decision process andlor through the Departmental Audit Report Tracking System. Therefore,
                 t h s recommendation is considered to be closed as it applies to NNSA.

            2.   Recommendation

                 Developing formal audit follow-up assessment review procedures as required by Departmental
                 Order, to verify and document actions taken have corrected issues identified through audits prior
                 to the submission of the assurance certification;




Page 21                                                                                     Management Comments
Appendix 4 (continued)




               Management Comment

               Concur.

               The Department will issue guidance to reemphasize the requirements of the audit resolution and
               follow-up program. This guidance will provide specific clarification of requirements for PSOs to
               maintain operating procedures and systems for audit resolution and follow-up, and ensure
               corrective actions have been implemented to effectively address audit report recommendations
               prior to submission of assurance certificates. The Office of the Chief Financial Officer will
               conduct periodic validations to ensure that these procedures are in place. This action is scheduled
               for closure by December 2007.

               NNSA currently has a variety of methods to accomplish the intent of this recommendation.
               However, these methodologies will be formalized and provided to the site managers, Service
               Center Director and senior program officials for their appropriate use. Some of the various
               methods for assessment currently utilized include:

                       Verification of corrective action by the Contractors' internal auditors as part of the
                       Cooperative Audit Strategy, with certification submitted to the appropriate Federal
                       manager;
                       Incorporation of audit follow-up into annual topical surveys, such as the annual site
                       specific security survey;
                       Verifications conducted by the Financial Internal Controls element as part of A-123
                       process repodng;
                       Inclusion into the Contractor Assurance System [this is an item that is important since
                       NNSA is moving into a risk management/contractor assurance system as opposed to a
                       compliance system of controls];
                       Verifications conducted by NNSA's Internal Affairs element; andlor
                       Inclusion into Program Reviews until open findings are completed/corrected.

               NNSA has also implemented a review and approval step at Headquarters for those reports that are
               managed by the various programmaticladministrative elements. The senior fimctionalAine
               manager (Associate Administrator for Defense Nuclear Security or the Deputy Administrator for
               Defense Programs, for example) will conduct an appropriate review and will concur with the
               certification package prior to submission to the Director, Policy and Internal Controls
               Management for final review. The Director makes the final recommendation for Certification of
               Completeness to the Associate Administrator for Management and Adrmnistration. NNSA's
               formalization of certification will be completed by the end of September 2007.


          3.   Recommendation

               Ensuring that appropriate officials are held accountable for carrying out formal assessments and
               reviews; and,




Page 22                                                                               Management Comments
Appendix 4 (continued)




               Management Comment

               Concur

               Current Departmental guidelines define clear lines of accountability for audit resolution activities,
               including assessments and reviews. The Department will issue guidance to reemphasize the
               requirements of the audit resolution and follow-up program, including the conduct of audit
               follow-up assessments or reviews on the implementation of corrective actions to address all audit
               report recommendations prior to providing an Assurance of Effectiveness of Corrective Actions
               Taken. Periodic validations of PSO procedures to accomplish these assessments will help
               enhance that accountability. This action is scheduled for closure by December 2007.

               NNSA also has formal lines of accountability incorporated into its methodology of
               operations. Managers are accountable and are held accountable by the Administrator as
               appropriate. For audit resolution, the lines of accountability run from the contractor to
               the site office or from the Headquarters program element prior to final certification by the
               Associate Administrator for Management and Administration. This recommendation is
               considered closed as it applies to NNSA.

          4.   Recommendation

               Reviewing all OIG findings and recommendations to determine the applicability of the issues
               identified and whether actions need to be taken to resolve identified issues.

               Management Comment

               Concur.

               The Department will issue guidance to reemphasize primary responsibilities of the head of each
               Departmental organization to review all audit report fmdings and recommendations assigned to
               oiher organizations to determine whether they may be applicable withln their own organizations.
               To help facilitate the programs' assessments of applicability, the Office of the Chief Financial
               Officer recently implemented an Audit Trends/Crosscutting Issues Analysis, which identifies
               significant audit issues that may impact multiple programs and sites. Departmental actions are
               scheduled for closure by December 2007.

               NNSA has an established process to allow all elements to review for applicability to their
               specific sites or programs those issues that are being raised in audit reports. This process
               includes the following steps:

                   All draft reports, regardless of topical area audited or site visited, are provided to the
                   NNSA complex. This communications process includes senior NNSA managers
                   (Administrator, Deputy and Associate Administrators, Service Center Director, and
                   appropriate site managers), senior program managers, the Federal internal controls
                   community, and internal auditors.
                   All final reports are provided to the entire NNSA complex as described above.
                   The NNSA internal controls community is informed, on a weekly basis during a
                   conference call, of draft andlor final reports that have been issued.

               Therefore, this recommendation is considered to be closed as it applies to NNSA




Page 23                                                                           Management Comments
                                                                IG Report No. DOEIIG-0766

                         CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions 'if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

3. 'Nhat additioiial information related to findings and recomnlendatio~lscould have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of lnspector General have taken on the
    issues discussed in this report which would have been helpful?

                                                                                t x :hs;:d
5. Please include your name and telephone number so that we m a y r n r t ~ c ;,n
   h.2 l l a ally
             ~ ~ questions about your comments.


Nain e                                           Date

Telephone                                        Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                             Office of Inspector General (IG- I )
                                   Department of Energy
                                  Washington, DC 20585

                                ATTN: Customer Relations



If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
 and cost effective as possible. Therefore, this report will be available electronically through the
                                 Internet at the folloxing address:

               U.S. Department of Energy Office of Inspector General Home Page
                                    hg~://www.i~.ener~v.oov

  Your conments would be appreciated and can be provided on the Customer Response Form.
